                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGNTIONS

                                                CLOSEOUT MEMORANDUM

 Case Number: AI0020010                                                                        Page 1 of 1



                                                                                                                 .
                  We reviewed an allegation that a graduate studentl at a universitl had falsified results by
          manipulating computer code for mathematical simulations described in his dissertation. The
          dissertation included as some of its chapters manuscripts published injoumals, only one of which
          acknowledged an NSF award3 for support for a co-author. Reports by experts provided to us during
          our inquiry indicate that the student's coding reflected inexperience with the programming language,
          as evidenced by a lack of typical coding conventions and the code's similarity to unrelated
          languages. The evidence in total suggests that this is a case of honest error or mistake and not
          research misconduct.

                    Accordingly, this case is closed.




NSF OIG Fonn 2 (11/02)
